No. 21-57

 

In THE
Supreme Court of the United States

LEVI FRASIER,

Petitioner,
ve

CHRISTOPHER EVANS ET AL.,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1th), I certify that the document contains

2,558 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 13, 2021.

 

Colin CasewHogan
Wilson-Epes Printing Co., Inc.
